Department of Homeland Security
   Ofﬁce of Inspector General

               FEMA’s Contracting Officer’s 

             Technical Representative Program 





OIG-11-106                                  September 2011
                                                                           Office
                                                                           Offce ofa/Inspector
                                                                                      Inspector General
                                                                                                General

                                                                           u.s. Department of Homeland
                                                                           U.S. Department of Homeland Security
                                                                                                       Security
                                                                           Washington,, DC
                                                                           Washington   DC 20528
                                                                                           20528




                                                                            Homeland
                                                                            Security
                                             SEP 022011


                                                   Preface

The Department of Homeland
The                  Homeland Security
                                Security (DHS)
                                         (DHS) Office
                                                  Offce of   Inspector General (OIG) was
                                                         ofInspector
established by the
                the Homeland Security
                              Security Act
                                        Actof2002
                                            0/2002 (Public Law 107-296) by amendment
   the Inspector General Act
to the                    Act of
                              0/1978.
                                 1978. This
                                        Thisisisone
                                                 one of
                                                     ofaa series
                                                           series of
                                                                  of audit,
                                                                     audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This    report
This report        addresses
            addresses the strengthsthe   strengths
                                    and weaknesses of and weaknesses of the Federal Emergency
Management Agency's contracting officer's             officer's technical
                                                                 technical representative
                                                                           representative program.
                                                                                          program. ItItisisbased
                                                                                                            based
on interviews with employees and officials of relevant agencies and institutions, direct
observations, and a review of               of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those
                                                  those responsible
                                                         responsible for
                                                                      for implementation.
                                                                           implementation. We
trust this report will result in more effective,
                                       effective, efficient, and
                                                             and economical
                                                                 economical operations.
                                                                              operations. We
express our appreciation to all ofof those who  contributed   to the preparation of
                                                                                 of this report.


                                               Matt         ~ ~-..------
                                                         Jadacki
                                               Matt ladacki        ~-­

                                               Assistant Insp~~~
                                               Assistant     Insp~~~ 

                                               Offce
                                               Officeof
                                                      ofEmergency
                                                        Emergency Management
                                                                  Management Oversight
                                                                             Oversight 

Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................7 


   COTRs Would Benefit From Hands-on Training........................................................... 7


    Recommendation ........................................................................................................ 8


    Management Comments and OIG Analysis ............................................................... 9 


   COTRs Can Be Influenced by Program Offices and Contractors .................................. 9


    Recommendation ...................................................................................................... 10


    Management Comments and OIG Analysis ............................................................. 10 


   Record Maintenance Policies Need Reinforcement ..................................................... 11


     Recommendations..................................................................................................... 12


     Management Comments and OIG Analysis ............................................................. 13 


   Formal Surge Strategy Is Needed ................................................................................. 13


     Recommendations..................................................................................................... 16


     Management Comments and OIG Analysis ............................................................. 17 


   Task Monitors Need Training....................................................................................... 17


     Recommendation ...................................................................................................... 18


     Management Comments and OIG Analysis ............................................................. 19




Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................20 

     Appendix B:           Management Comments to the Draft Report .......................................21 

     Appendix C:           COTR Training Requirements.............................................................24 

     Appendix D:           Primary COTR Appointment Letter ....................................................27 

     Appendix E:           COTR Locations ..................................................................................35 

     Appendix F:           Survey Results .....................................................................................36 

     Appendix G:           List of Related Reports ........................................................................43 

     Appendix H:           Major Contributors to this Report ........................................................45 

     Appendix I:           Report Distribution ..............................................................................46 

Abbreviations
  CAO      Chief Acquisition Officer
  CLM      continuous learning module
  CLP      continuous learning point
  CORE     Cadre of On-Call Response Employees
  COTR     contracting officer’s technical representative
  CPARS    Contractor Performance Assessment Reporting System
  DAE      Disaster Assistance Employee
  DHS      Department of Homeland Security
  FEMA     Federal Emergency Management Agency
  GAO      Government Accountability Office
  IA-TAC   Individual Assistance-Technical Assistance Contracts
  IPT      Integrated Project Team
  OCPO     Office of Chief Procurement Officer
  OFPP     Office of Federal Procurement Policy
  OIG      Office of Inspector General
  OMB      Office of Management and Budget
  PA-TAC   Public Assistance-Technical Assistance Contracts
OIG


Department of Homeland Security
Office of Inspector General

Executive Summary
                 In the aftermath of Hurricane Katrina, the Federal Emergency
                 Management Agency dedicated significant resources to improve its
                 contracting officer’s technical representative program. Its Office
                 of the Chief Procurement Officer (1) dedicated staff to oversee the
                 program, (2) developed a tiered system, which ties training
                 requirements to dollar values of contracts that a contracting officer’s
                 technical representative can monitor, and (3) developed an intranet
                 site containing contracting officer’s technical representative tools
                 and news. The program office verifies that contracting officer’s
                 technical representatives are meeting training requirements and
                 notifies them when their certification status needs to be updated.

                 The agency has made great strides in improving the program, but
                 challenges remain. Many certified contracting officer’s technical
                 representatives have never served on a contract and are unsure of
                 their ability to be effective during a disaster. Although they
                 represent contracting officers, program office officials complete
                 their appraisals, leading to divided loyalties. Contracting officer’s
                 technical representatives do not always follow file maintenance
                 policies established agency-wide or complete contractor
                 evaluations timely. The agency does not have a surge strategy for
                 the program, instead relying on the sheer number of certified staff
                 to handle large disasters. Also, some large contracts are monitored
                 by untrained task monitors rather than contracting officer’s
                 technical representatives.

                 During this review, the agency was unable to identify its
                 contracting officers. Furthermore, the agency does not target job
                 announcements to attract contracting officers for its disaster reserve
                 cadre, thus not taking advantage of programs being offered to attract
                 and retain these skilled individuals. Should a major disaster strike,
                 the agency will be unable to quickly deploy experienced and trained
                 contracting officers, leaving itself at risk to the same type of contract
                 problems it experienced in the aftermath of Hurricane Katrina.

                 Our report contains eight recommendations to improve the
                 program and to better sustain agency operations during a disaster.



             FEMA’s Contracting Officer’s Technical Representative Program

                                        Page 1
Background
                           Each year, the Federal Emergency Management Agency (FEMA)
                           spends hundreds of millions of dollars on contracts for goods and
                           services—$1.8 billion in 2009 and almost $500 million in 2010.1
                           More than two-thirds of all contracting dollars were spent in
                           headquarters, Region IV, and Region VI. These contracts are
                           overseen by contracting officials, including contracting officer’s
                           technical representatives (COTRs).

                           The COTR plays a critical role in the outcome of the contract
                           administration process and functions as the “eyes and ears” of the
                           contracting officer, monitoring technical performance and
                           reporting any potential or actual problems to the contracting
                           officer. The COTR must stay in close communication with the
                           contracting officer, relaying any information that may affect
                           contractual commitments and requirements. The COTR’s contract
                           administration duties may be simple or complex and time-
                           consuming, depending on the type of contract, contractor
                           performance, and the nature of the work. The COTR is selected by
                           the program office needing the contracted goods and services.
                           Figure 1 shows the share of COTRs by program office.

                           Figure 1. FEMA COTRs by Program Office




                           Source: OIG analysis of FEMA data.


                           Successful acquisitions take a team to complete. Table 1 provides
                           descriptions of the key personnel needed in the acquisition process.



1
    www.usaspending.gov.

                     FEMA’s Contracting Officer’s Technical Representative Program

                                                     Page 2
Table 1. Key FEMA Acquisition Personnel

Title                    Roles/Responsibilities

Contracting Officer           The contracting officer functions as the business manager
                              and advisor to the program office throughout the acquisition
                              process. The contracting officer is an employee of FEMA
                              with the delegated authority to negotiate, enter into,
                              administer, modify, and terminate contracts on behalf of the
                              government. Contracting officer involvement includes
                              making determinations and findings on matters such as the
                              appropriate contract type, method of procurement, and the
                              fairness and reasonableness of prices. The contracting
                              officer is the subject matter expert with technical expertise
                              and knowledge of the rules and regulations governing
                              federal procurement.


Contracting Specialist        The contracting specialist supports the contracting officer
                              and is responsible for the processes leading to the
                              procurement of services and supplies, including proper
                              development of procurement package documents and the
                              contract file.


Contracting Officer’s         The principal role of the COTR is to support the contracting
Technical                     officer in managing the contract. The COTR administers
Representative                and directs the agreement within the confines of the
(COTR)                        contract, monitors performance, ensures that requirements
                              meet the terms of the contract, and maintains a strong
                              partnership with the contracting officer. Together, the
                              COTR and the contracting officer must ensure that program
                              requirements are clearly communicated and the agreement is
                              performed to meet those requirements.


Task Monitor                  Task monitors are responsible for observing contractor
                              performance and providing technical feedback to the COTR.
                              They have no contract execution oversight authority, nor are
                              they able to accept deliverables. Task monitors only provide
                              recommendations to the COTR.




                FEMA’s Contracting Officer’s Technical Representative Program

                                           Page 3
                          Contracting Officer’s Technical Representatives

                          The program office acquiring the contracted goods and services
                          selects a COTR from its staff. The selection is sent to the
                          contracting officer, who verifies that the nominee has the
                          prerequisite training for the contract. The COTR is then appointed
                          to the contract by the contracting officer and is authorized to
                          monitor the contract on behalf of the contracting officer. However,
                          the COTR is not authorized to make any contractual commitments
                          or changes that may affect the contract price, terms, or conditions
                          without the approval of the contracting officer. Some COTRs are
                          assisted by task monitors (also known as project or technical
                          monitors), who review and report on the technical aspects of the
                          contractor’s performance, such as compliance with specific
                          contract terms. The COTR role can be either part time or full time,
                          and is often a collateral duty.2 As of March 2011, FEMA
                          employed 1,430 certified COTRs.

                          The Office of Management and Budget (OMB), through its Office
                          of Federal Procurement Policy (OFPP), issues guidance for COTR
                          training and programs. Government-wide COTR training was
                          addressed in OMB Policy Letter 05-01.3 This letter states that the
                          Chief Acquisition Officer (CAO) of the agency is “responsible for
                          assessing the current skills inventory of the workforce, identifying
                          short- and long-term agency needs, and establishing plans,
                          including recruitment and retention strategies, for obtaining the
                          acquisition workforce resources and skills required to meet future
                          agency mission needs.”

                          The agency’s CAO4 is responsible for developing basic and
                          refresher training requirements to ensure that COTRs are
                          adequately trained. Agency COTRs are required to earn at least 40
                          continuous learning points5 every 2 years. Additionally, the OFPP
                          Administrator prescribes specific continuous learning courses to
                          ensure that training is provided on topics such as ethics,
                          performance-based contracting, and strategic sourcing.




2
  The Office of Personnel Management does not recognize COTR as a full-time position, and therefore
does not provide a job series for full-time COTRs.
3
  The purpose of the policy letter is to establish a “government-wide framework for creating a federal
acquisition workforce with skills necessary to deliver best value supplies and services,” allowing COTRs to
“be trained and developed using common standards.”
4
  In FEMA, the Chief Acquisition Officer is the Chief Procurement Officer.
5
  One continuous learning point is earned for each hour of training.

                      FEMA’s Contracting Officer’s Technical Representative Program

                                                  Page 4
                         COTR Program Weaknesses Previously Reported

                         COTRs have an important role in contract oversight. Along with
                         the Government Accountability Office (GAO), we have conducted
                         numerous audits and have noted weaknesses in FEMA’s COTR
                         program that have led to waste and abuse. Some of our previous
                         recommendations have been addressed and have strengthened the
                         program, whereas others remain outstanding.

                             Training
                             o	 Documentation of COTR certification and training was
                                 lacking.6
                             o	 Instruction manuals and guides intended for the acquisition
                                 workforce had not been updated to reflect current federal
                                 acquisition regulations.7

                             Communications
                             o		 COTRs were unaware of the basic contract requirements
                                 they were supposed to be monitoring.8
                             o		 There was an overall lack of communication between
                                 COTRs and program officials.9

                             File Maintenance
                             o	 COTRs failed to maintain quality assurance information on
                                  the contracts they were monitoring.10
                             o		 Contract file policies and procedures, organization and
                                  maintenance regulations, and contract closeout
                                  requirements were infrequently monitored.11

                             COTR Performance Feedback
                             o		 No process was in place for the contracting officer to
                                 provide performance feedback to the COTR’s supervisor.12
                             o	 COTR monitoring reports lacked required signatures, or
                                 evidence that different offices had reviewed the
                                 contractor’s responses.13


6
  Acquisition Workforce Training and Qualifications (OIG-08-56), May 2008.

7
  An Audit of FEMA’s Acquisition Workforce (OIG-04-12), March 2004.

8
  Hurricane Katrina Temporary Housing Technical Assistance Contracts (OIG-08-88), August 2008.

9
  National Flood Insurance Program: Continued Actions Needed to Address Financial and Operational
 

Issues (GAO-10-631T), April 2010. 

10
   Ineffective FEMA Oversight of Housing Maintenance Contracts in Mississippi Resulted in Millions of 

Dollars of Waste and Potential Fraud (GAO-08-106), November 2007. 

11
   Internal Controls in the FEMA Disaster Acquisition Process (OIG-09-32), February 2009. 

12
   Ibid. 

13
   National Flood Insurance Program: Financial Challenges Underscore Need for Improved Oversight of 

Mitigation Programs and Key Contracts (GAO-08-437), June 2008. 


                     FEMA’s Contracting Officer’s Technical Representative Program

                                                Page 5
                               FEMA’s COTR Website

                               To assist its COTRs, FEMA has established a COTR intranet
                               website. The site includes a COTR “Toolkit” containing forms
                               and templates commonly used by COTRs, as well as updated
                               policy information.

                               According to the data on the site, FEMA currently has 1,430
                               certified COTRs.14 They are categorized by tier level, reflecting
                               their training and experience. This categorization matches COTR
                               competency with contract complexity. Table 2 represents the
                               COTR tiered certification requirements.


                     Table 2. COTR Training Requirements for Tier Designation




        Source: FEMA’s COTR website, accessed March 15, 2011.




14
     FEMA intranet as of March 15, 2011.

                         FEMA’s Contracting Officer’s Technical Representative Program

                                                         Page 6
Results of Audit
         Although FEMA has enhanced its COTR program, the following areas require
         additional attention: enhancing COTR training, reducing program office pressure,
         following records management guidance, developing a strategy to handle
         disasters, and training task monitors.

         As part of our fieldwork, we conducted a survey on FEMA’s COTR program.
         The survey was forwarded to 1,710 individuals, including COTRs, warranted
         contracting officers,15 and unwarranted contracting officers. We received greater
         than a 50% response rate from COTRs and an 85% response rate from warranted
         contracting officers. Appendix F contains the survey questions and a summary of
         the answers.

         COTRs Would Benefit From Hands-on Training
                  FEMA COTR training requirements are mandated by DHS Acquisition
                  Workforce Policy Number 064-04-003, Contracting Officer Technical
                  Representative Certification, Appointment and Termination. To assume
                  COTR responsibilities, an employee must complete 40 hours of initial
                  training either in a classroom or online. Thereafter, 40 hours of training
                  must be completed biennially to maintain COTR certification. Most
                  COTRs found the initial certification training to be effective and useful,
                  but several areas need improvement.

                  COTRs said that they would benefit from training that is more technical
                  and focuses on the “how-to” of contracting. For example, COTRs would
                  like detailed guidance on what steps to take when they are appointed to a
                  contract and instruction on the review and approval of invoices. A
                  contract specialist suggested that COTRs also receive business process
                  training, including how to compile financial data and document problems.
                  One COTR said that the training simply outlines the laws and regulations,
                  but does not prepare them for the actual experience of performing COTR
                  duties. In addition, many of the followup training courses are offered only
                  through the Defense Acquisition University, with examples specific to the
                  Department of Defense. COTRs find it hard to apply these examples to
                  FEMA’s work.

                  Some of the COTRs we spoke to felt they would be uncomfortable
                  performing their duties without a supervisor or mentor. One COTR said
                  that he was not sure he was prepared to function as a COTR if a disaster
                  were declared. One reason for this is that program offices repeatedly

15
  A warranted contracting officer carries a warrant allowing him or her to bind the government in
contracts; an unwarranted contracting officer is employed as an 1102 job series, might have kept his or her
education requirements current, but does not currently have a contract warrant.

                      FEMA’s Contracting Officer’s Technical Representative Program

                                                   Page 7
appoint the same COTRs instead of taking full advantage of the entire
pool of certified COTRs, leaving many COTRs with no contract oversight
experience. Many COTRs said they need more real-world opportunities
soon after training to remember what they have learned. A regional
COTR said that she is sure she has forgotten everything she learned and
would need to be recertified in order to perform effectively as a COTR.
Several COTRs stated that on-the-job training was much more helpful
than the classroom training.

Many COTRs agreed that a mentoring program is needed to supplement
what they learn in training. A supervisor agreed that the quality of
certification training varies; simply passing a course does not mean that
someone can function as a COTR. Providing newly certified COTRs with
an opportunity to shadow more experienced COTRs would enable them to
perform COTR duties more effectively, such as identifying illegitimate
invoices, holding contractors accountable, and knowing which FEMA
forms and processes to use—topics that are not always covered in training.
A mentoring program would also help COTRs understand what actions
they can and cannot take against a contract or contractor. A regional
COTR said that the best training she received was the mentoring provided
by her coworker. She is now comfortable mentoring others. Other
COTRs said their duties are not something that can be done right away
without supervision; they require guidance and mentoring. Training alone
is not enough to enable COTRs to oversee large contracts.

COTRs are taking the prescribed training and finding it useful. However,
they would benefit from more hands-on experience before taking on full
COTR responsibilities. This hands-on experience should familiarize the
COTRs with FEMA’s business processes and help them develop the
confidence needed for larger and more complex contracting actions.

Recommendation
       We recommend that the Chief Procurement Officer, Federal
       Emergency Management Agency:

       Recommendation #1: Develop and implement a contracting
       officer’s technical representative mentoring program led by the
       contracting officer’s technical representatives’ contracting officers
       and contract specialists; and, where practical, ensure that program
       offices nominate certified contracting officer’s technical
       representatives with appropriate skill sets for consideration for
       appointment by the contracting officer to gain on-the-job
       experience.



   FEMA’s Contracting Officer’s Technical Representative Program

                              Page 8
                Management Comments and OIG Analysis
                         FEMA concurs with this recommendation. The Office of Chief
                         Procurement Officer (OCPO) will develop a pilot program to
                         evaluate the feasibility of having a COTR mentoring program, and
                         has established an implementation date of September 30, 2011.

                         We consider this to be an appropriate start to developing a world-
                         class COTR cadre. However, we are concerned that a pilot
                         program to evaluate the feasibility of having a COTR mentoring
                         program is not the same as having a mentoring program. By
                         having a pilot program to evaluate the feasibility of such a
                         program, FEMA is delaying the opportunity to strengthen its
                         current cadre.


        COTRs Can Be Influenced by Program Offices and Contractors
                COTRs are selected by the program office in which they work, and the
                selection is submitted to the contracting officer for approval. A COTR’s
                duties are overseen by a contracting officer; however, the contracting
                officer is not required to provide formal input into the COTR’s annual
                performance appraisal. DHS Acquisition Workforce Policy16 states that
                when requested by a COTR’s supervisor, a contracting officer is to
                provide input for the COTR’s midpoint or annual appraisal. However,
                during our review, we learned that the part-time COTR’s performance
                appraisal was generally completed by the COTR’s direct supervisor or
                manager in the program office and did not include measures of success for
                COTR duties, unless the program office reached out and initiated a
                request. COTRs, contracting officers, and contracting specialists agree
                that it would be helpful if formal input were provided by the contracting
                officer or contracting specialist.

                Because COTRs are ultimately evaluated by their program office
                supervisor, COTRs may be influenced into meeting the program office’s
                needs and making contracting decisions that go against their better
                judgment. For example, in one instance involving the National Flood
                Insurance Program office, a contractor was hired to develop a new
                information technology system and manage the transition from the legacy
                system. The person appointed as COTR was a former employee of the
                contractor; many of the program office managers were former employees
                of the contractor that had developed the legacy system. The program
                office managers were unable to break allegiances to their former

16
 Contracting Officer Technical Representative Certification, Appointment and Termination, DHS
Acquisition Workforce Policy Number 064-04-003, September 30, 2010.

                    FEMA’s Contracting Officer’s Technical Representative Program

                                               Page 9
                employer, fueling favoritism for the legacy contractor, which impeded the
                completion of contract services. This ultimately resulted in the
                termination of the contract and removal of the COTR from his duties.17

                During our survey, we asked COTRs about challenges they faced, and
                about 16% replied that they felt excessive pressure from their program
                office.18 COTRs also reported instances in which contractors asked them
                to sign invoices or approve contract modifications, a clear violation of
                contracting regulations. One COTR recommended shifting the COTRs’
                chain of command to fall under the FEMA OCPO, thereby preventing
                undue influence from program officials who persist in omitting the
                contracting officer from contract-related discussions.

                Recommendation
                        We recommend that the Chief Procurement Officer, Federal
                        Emergency Management Agency:

                        Recommendation #2:

                                 Recognize contracting officer’s technical representative
                                 duties and ensure contracting officer input into the
                                 contracting officer’s technical representative’s annual
                                 appraisal.
                                 Issue a memorandum annually from the Federal Emergency
                                 Management Agency Administrator reminding supervisors
                                 that exerting undue pressure on contracting officer’s
                                 technical representatives to perform duties outside the
                                 contract scope of work is an ethics violation and may be
                                 subject to adverse action.


                Management Comments and OIG Analysis
                        FEMA partially concurs with this recommendation. FEMA’s
                        OCPO does not have supervisory authority over COTRs. In
                        accordance with FEMA Directive 228-1, supervisors may solicit
                        the feedback of the contracting officer for the COTR’s annual
                        appraisal.

                        We understand that the OCPO does not have supervisory authority
                        over COTRs, as COTRs are placed in the directorates that are

17
   Improvement Needed in FEMA’s Management of the National Flood Insurance Program’s Information 

Technology Transition (OIG-10-76), March 2010. 

18
   See appendix F for the complete COTR survey results. 


                    FEMA’s Contracting Officer’s Technical Representative Program

                                              Page 10
                       receiving the benefits of the contracts they oversee. However, we
                       do not believe that FEMA Directive 228-1 goes far enough in
                       protecting the government’s interests. This directive is dated
                       September 28, 2009. However, during the course of our audit,
                       which occurred in late 2010 and early 2011, COTRs still expressed
                       concerns regarding undue supervisory influence. The directive
                       requires the COTR’s supervisor to request the contracting officer’s
                       input. Until FEMA develops a way to ensure that COTRs are
                       evaluated for their contract oversight, we believe that contracts will
                       continue to be subject to program office interference.

                       FEMA concurs with the second part of this recommendation. In
                       coordination with the FEMA Office of Chief Counsel, the OCPO
                       will, at the start of each fiscal year, prepare a memorandum
                       reminding supervisors that exerting undue pressure on COTRs to
                       perform duties inconsistent with their appointment or the contract
                       scope of work is an ethics violation and may be subject to adverse
                       action.


       Record Maintenance Policies Need Reinforcement
               Contract record maintenance and retention improved after we reported that
               FEMA needed internal controls for records management and
               maintenance.19 However, record retention policies are still not effectively
               communicated or widely followed. Adherence to policies varies by
               contracting officer and COTR, as many are unaware of what the formal
               contract file maintenance processes entail.

               The COTR website provides a checklist for COTRs to use to ensure that
               contract files are properly maintained. FEMA Directive 228-1,
               Contracting Officer’s Technical Representatives, requires that contract
               files be properly maintained. However, contract files are not always
               complete, as (1) not all COTRs are aware that the checklist exists and
               (2) there has been inadequate discipline in contract file management.
               Some COTRs have developed their own methods for maintaining files.
               For example, one COTR maintains a complete file, including the
               checklist, COTR appointment letter, a list of responsibilities, the contract
               and contract modifications, and copies of invoices. On the other hand,
               another COTR claimed that document management was discussed in
               training but once she was assigned to a contract, there was no push by
               management to maintain files.


19
 Improvements Needed in FEMA’s Disaster Contract Management (OIG-10-53), February 2010; and
Challenges Facing FEMA’s Disaster Contract Management (OIG-09-70), May 2009.

                   FEMA’s Contracting Officer’s Technical Representative Program

                                             Page 11
COTRs are also unsure of what to do with files once contract terms are
completed. COTRs are supposed to submit contract files to the
contracting officers. The contracting officer reviews the files for
completeness, packs them in boxes, and forwards them for storage.
COTRs told us that files are—

       Not forwarded to the contracting officer “over 90% of the time”;
       Taken home in case there are issues later on with the contractor; and
       Personally maintained “for a long time.”

FEMA has policies and methodologies for documenting problems with
contractors. The OCPO instructs employees to use the Contractor
Performance Assessment Reporting System (CPARS) to capture
contractor performance evaluations. However, not all COTRs are using
this system. This makes it difficult for contracting officers to determine
whether a contractor has had a record of performance problems when
deciding whether to renew a contract. A few contracting officers request
informal feedback from COTRs regarding contractor performance. Only
in one office did the contracting officers ask COTRs to rate contractor
performance and document it in the contract file. Some COTRs claim that
there is no need for formal contractor performance documentation because
they work closely with their contracting officers on a daily basis and can
communicate any contractor issue to them in person. In September 2009,
FEMA’s Chief Procurement Officer issued a memorandum defining the
various roles in CPARS preparation and use. The Chief Procurement
Officer also expressed his expectation for “everyone having a role in
CPARS to perform those roles as required.”

The Federal Acquisition Regulation contains requirements for proper file
maintenance. Records are necessary to support decisions made and
actions taken. A standardized storage method is necessary so that
documents are available if there is a change in personnel or if there is any
disagreement over contract performance. Further, contractors deserve a
fair and accurate evaluation of their performance. This evaluation should
be captured in CPARS, where it is available for contracting officers to
consider in future awards.

Recommendations
       We recommend that the Chief Procurement Officer, Federal
       Emergency Management Agency:

       Recommendation #3: Enforce Federal Emergency Management
       Agency Directive 228-1, Contracting Officer’s Technical
       Representatives, and provide periodic training on the use of the
       contracting officer’s technical representative file checklist.

   FEMA’s Contracting Officer’s Technical Representative Program

                             Page 12
            Recommendation #4: Implement mechanisms to enforce
            established policies for oversight in the use of the Contractor
            Performance Assessment Reporting System.


     Management Comments and OIG Analysis
            FEMA concurs with recommendation #3. FEMA stated that the
            “OCPO conducted a pilot program for COTR file technical review.
            Program Offices were selected at random to ensure COTR file
            compliance with FEMA Directive 228-1 and the COTR
            appointment letter. Non-compliance of the directive and
            appointment letter may result in termination of the COTR
            appointment. Periodic training and communication to COTRs
            regarding COTR file maintenance is continuous.” FEMA’s
            response is silent as to what happened to the pilot program,
            whether it was found to be effective, or whether the OCPO
            determined that there was a better way to ensure proper COTR file
            maintenance. However, during the course of our audit, we became
            aware that the COTR technical file review was curtailed because of
            funding limitations. We look forward to learning more about
            FEMA’s plan to ensure COTR compliance with Federal
            Acquisition Regulation file maintenance requirements.

            FEMA concurs with recommendation #4. FEMA’s OCPO will
            develop policy regarding the use of CPARS by January 1, 2012.
            We agree that policy is needed for better CPARS compliance. We
            also request that FEMA not only develop policy but strengthen its
            internal oversight of CPARS use.


Formal Surge Strategy Is Needed
     FEMA currently has no system in place to quickly call up COTRs in the
     event of a disaster. The COTR Program Lead indicated that, at this time,
     the best way to handle a situation in which COTRs need to be deployed
     immediately would be to look at the list of COTRs based on location and
     then provide that information to the FEMA program office.

     FEMA maintains a database listing DHS-certified COTRs, and the list is
     also available via FEMA’s COTR community website. However, when
     we administered our survey to all COTRs and contracting officers, a
     number of the email addresses provided were incorrect. Furthermore, the
     OCPO did not have a current list of its warranted contracting officers.
     When FEMA finally compiled a contracting officer list for us, many of the

        FEMA’s Contracting Officer’s Technical Representative Program

                                  Page 13
                   addresses were incorrect; the OCPO was unable to provide an accurate list
                   even after numerous conversations. Without an accurate list of names and
                   contact information, it would be extremely difficult for FEMA to contact
                   these contracting officers and COTRs in the event of a disaster. To ensure
                   quick and efficient contracting activity during a disaster, FEMA needs to
                   maintain an accurate list of its contracting officers and COTRs.

                   In 2008, we reported that FEMA needed to enhance its plans and policies
                   to develop a well-prepared acquisition workforce that can respond to
                   disasters that result in extraordinary levels of casualties, damage, or
                   disruptions. Specifically, we recommended that FEMA—

                           Develop and implement a strategic acquisition workforce plan;
                           Coordinate with other FEMA components and federal acquisition
                           organizations that have responsibilities to prepare for and respond
                           to such disasters;
                           Develop and implement detailed acquisition workforce policies
                           and procedures;
                           Complete a staffing analysis to determine the appropriate size of
                           the Disaster Assistance Employee (DAE) contracting cadre;
                           Develop a succession plan for FEMA’s Office of Acquisition
                           Management20 acquisition staff;
                           Initiate a formal mentoring program;
                           Design a rotation program for headquarters and regional office
                           acquisition personnel to obtain disaster contracting experience; and
                           Provide training and guidance to the field office staff in
                           conjunction with reassignment of contract administration
                           responsibilities.21

                   FEMA has made progress on some of these activities, but more should be
                   done.

                   As of January 2010, FEMA had 16,588 federal employees, of whom 4,169
                   or approximately 25% were permanent. The remaining 75% of FEMA’s
                   workforce is nonpermanent disaster-related employees. Section 306 of the
                   Robert T. Stafford Disaster Relief and Emergency Assistance Act
                   authorizes the “Appointment of temporary personnel, experts, and
                   consultants” during a disaster. The largest group of temporary employees
                   is classified as DAEs. DAEs are federal employees who work on an on-
                   call, intermittent basis, forming the major FEMA workforce in times of
                   emergency or disaster. DAEs help complete FEMA’s mission by staffing



20
     Now known as OCPO. 

21
     Challenges Facing FEMA’s Acquisition Workforce (OIG-09-11), November 2008. 


                       FEMA’s Contracting Officer’s Technical Representative Program

                                                 Page 14
                  joint field offices22 and disaster recovery centers; interviewing disaster
                  survivors; conducting and verifying damage assessments; providing
                  administrative, financial, acquisition, and logistical support; and
                  performing a wide variety of other tasks as identified by staffing needs and
                  operational requirements.

                  In the federal government, the standard way to classify employees is the
                  use of numeric coding that is assigned to an occupational series. It provides
                  agencies a way to group similar jobs together. FEMA has more than 130
                  occupational series, but regardless of their individual qualifications and
                  experiences, all of FEMA’s DAEs are classified in the Generalist-301
                  series. Most of FEMA’s 301 series employees are program specialists in
                  mission-critical areas such as emergency preparedness, response, or
                  emergency management. DAEs are not given specific job titles or job
                  descriptions that identify those qualified as contracting officers, COTRs,
                  or acquisition-related experts.

                  According to FEMA officials, this legacy practice of classifying all DAEs
                  in the 301 series has an adverse impact on the acquisition cadre and it is an
                  impediment to recruitment, qualification, and readiness. For example,
                  despite a government-wide increase of qualified retiring 1102 series
                  contract specialists,23 FEMA is unable to attract these individuals to
                  become part-time, intermittent DAE employees because FEMA advertises
                  openings only for generalists in the 301 series. Also, because acquisition
                  policies are crafted to limit the financial risk to the government posed by
                  non-1102 acquisition personnel, FEMA has limited the warrant levels for
                  301 series contracting officers to $150,000. Prior to retirement, those
                  same personnel may have held multimillion-dollar or unlimited warrants.
                  This constraint limits the new hires’ ability to contribute to the award of
                  higher level acquisitions at disaster sites. Also, while the Office of
                  Personnel Management provides certain waivers for retired annuitants
                  who return to serve in 1102 series positions, it does not provide the same
                  for 301 series positions. Consequently, the 301 series DAEs serving as
                  contract specialists are not encouraged to be available after the first 120
                  days of a disaster declaration,24 and according to FEMA, this results in
                  more frequent turnover in deployments.


22
   A joint field office is a temporary federal multiagency coordination center established locally to facilitate
field-level domestic incident management activities related to prevention, preparedness, response, and
recovery. It provides a central location for coordination of federal, state, local, tribal, nongovernmental,
and private-sector organizations with primary responsibility for activities associated with threat response
and incident support.
23
   “Contract specialist” is the term used for those in the 1102 series; a contracting specialist, as defined in
table 1, is a job title for those who support contracting officers.
24
   The Office of Personnel Management states that within the first 120 days of a presidential disaster
declaration, FEMA is authorized to waive the pay/retirement reduction for civilian retirees employed
during presidentially declared disasters.

                       FEMA’s Contracting Officer’s Technical Representative Program

                                                    Page 15
Readiness is also at risk as contract specialists, who as part of the Cadre of
On-Call Response Employees (CORE) or permanent full-time employees
are classified as 1102 series personnel, have an affirmative education and
training requirement in law. These training and education requirements
ensure that only qualified personnel are obligating funds for the government
and are providing appropriate oversight. However, when 301 series DAEs
perform these same tasks, they may do so without meeting the education,
training, and continuing education requirements of their 1102 series
counterparts.

Although FEMA has succeeded in increasing the size of its COTR
workforce, it has not yet developed a methodology to provide the contract
oversight vital in large disasters. With the administration and Congress
focused on performance outcomes, now is the time for agencies to invest
in the acquisition workforce directly overseeing contract performance.
The federal government must attract talented individuals into the
acquisition workforce, whether as permanent employees or DAEs, to
ensure cost savings, reduce risk in contracting practices, and improve
acquisition and project management. Contracting officers and COTRs are
critical to ensuring that contracts deliver expected outcomes. To support
this process, the federal government has identified hiring flexibilities and
strategies that agencies should consider to improve the visibility of
acquisition jobs, target specific skill sets, and reduce the administrative
burden on the agency and the applicant.

Recommendations
       We recommend that the Chief Procurement Officer, Federal
       Emergency Management Agency:

       Recommendation #5: Develop a working group with the program
       offices to develop a surge strategy for deployment of contracting
       officer’s technical representatives during disasters.

       Recommendation #6: Develop and maintain, on a monthly basis,
       a database with essential information regarding warranted
       contracting officers.

       Recommendation #7: Work in concert with the Federal
       Emergency Management Agency Chief Component Human
       Capital Officer and the Federal Emergency Management Agency
       Chief Counsel to review the classification of Acquisition Cadre
       positions in an effort to improve the recruitment and optimize the
       training and utility of contracting specialists in the Acquisition
       Cadre within the constraints of the Disaster Assistance Employee
       program.

   FEMA’s Contracting Officer’s Technical Representative Program

                             Page 16
                  Management Comments and OIG Analysis
                           FEMA concurs with recommendation #5. The OCPO will
                           coordinate a working group with the program offices to assist in
                           surge strategies for COTR deployment. We believe that having a
                           surge strategy for disaster deployment will lessen some of the
                           uncertainties that are bound to occur during a disaster and
                           strengthen FEMA’s effectiveness during emergencies.

                           FEMA concurs with recommendation #6. The OCPO Acquisition
                           Career Manager maintains an accurate record of warranted
                           contracting officers with their contact information.

                           FEMA concurs with recommendation #7. FEMA’s Office of
                           Human Capital has agreed with the change needed to have DAE
                           reservists identified in the 1102 series. The OCPO is now working
                           directly with the FEMA Response Directorate, within the Office of
                           Response and Recovery, to form a pilot working group to develop
                           a cadre of Acquisition reservists.


         Task Monitors Need Training
                  In a recent report, we stated that FEMA was using untrained task monitors
                  to oversee Public Assistance25-Technical Assistance Contracts
                  (PA-TAC).26 These are often multimillion-dollar contracts, depending on
                  the type and severity of the disaster. FEMA has contracts in place with
                  three contractors to provide architectural and engineering expertise after a
                  disaster. The contracting officer and COTR for these contracts are based
                  at FEMA headquarters, yet the actual work is performed in the field.
                  FEMA has assigned task monitors at disaster sites to provide contract
                  oversight. However, these task monitors had no significant experience or
                  training to prepare them for these duties; often they were assigned simply
                  because they were available at the disaster site.

                  Individual Assistance-Technical Assistance Contracts27 (IA-TAC) are
                  used to assist individuals after a disaster with temporary housing and mass

25
   FEMA awards grants to assist state and local governments and certain private nonprofit entities with the
response and recovery from disasters through the Public Assistance Program.
26
   Improvements Needed in FEMA’s Management of Public Assistance-Technical Assistance Contracts
(OIG-11-02), October 2010.

27
   IA-TAC differ from PA-TAC in that all PA-TAC contractors may be activated for a disaster. IA-TAC 

contractors each have an assigned sector of the country; they are activated on the basis of the location of the 

disaster. 


                       FEMA’s Contracting Officer’s Technical Representative Program

                                                    Page 17
                   care. The IA-TAC program office also uses task monitors to oversee
                   contractors in the field. This program office has realized the weakness in
                   having untrained task monitors, so it is starting to require its task monitors
                   to become certified COTRs. By requiring this training, the IA-TAC office
                   will improve the quality of its oversight of the disaster contractors.28

                   FEMA is developing the Disaster Acquisition Response Team to perform
                   disaster contract oversight, administration, and contract closeout.
                   Although the staff will be located in regional offices, they are considered
                   headquarters assets and can be used nationally. Their focus will be on the
                   large task orders already issued against the pre-positioned contracts
                   following disasters. These employees will assist joint field offices and
                   regions in closing out those task orders issued in response to a disaster to
                   allow for a more timely return of unobligated funds to the Disaster Relief
                   Fund. The creation of this team is still in the planning stages.

                   PA-TAC and IA-TAC are just a few of the large contracts issued by
                   FEMA headquarters. Other large contracts are overseen by COTRs based
                   in Washington, DC, even though the actual work is performed elsewhere.
                   The actual work is monitored by regional staff with the technical
                   knowledge, but possibly little or no contracting training. Although
                   personnel must be assigned to provide onsite monitoring, those assigned
                   need to be fully trained to perform their oversight, acquisition-related
                   duties. The COTR program is one way to provide that training.

                   FEMA spends millions of contract dollars annually for goods and services
                   nationwide. COTRs cannot be at every location in which contractors are
                   performing, so using task monitors is a reasonable method of ensuring
                   contract monitoring. However, these task monitors need to be adequately
                   trained and supported, so that the contractors are held to the appropriate
                   standards and FEMA receives the goods and services it needs.

                   Recommendation
                           We recommend that the Chief Procurement Officer, Federal
                           Emergency Management Agency:

                           Recommendation #8: Implement policy that requires all technical
                           monitors to be Department of Homeland Security certified
                           contracting officer’s technical representatives, and appoint them as
                           limited authority contracting officer’s technical representatives on
                           a contract.



28
     We are completing an audit of FEMA’s IA-TAC.

                      FEMA’s Contracting Officer’s Technical Representative Program

                                                Page 18
Management Comments and OIG Analysis
      FEMA concurs with recommendation #8. The COTR Program has
      updated the COTR Handbook to address limited authority COTRs.
      FEMA plans on updating FEMA Directive 228-1 with the role and
      responsibilities of the limited authority COTRs. FEMA’s response
      is silent as to whether all who have functioned as technical
      monitors will be required to become limited authority COTRs;
      however, we believe that FEMA’s concurrence signifies its
      acceptance of this additional step.




  FEMA’s Contracting Officer’s Technical Representative Program

                            Page 19
Appendix A
Purpose, Scope, and Methodology

                   The objective of our audit was to determine whether FEMA has
                   adequate controls, policies, and procedures in place to effectively
                   manage its contracting officer’s technical representative program.

                   We conducted interviews at FEMA headquarters, FEMA Regions
                   II, III, IV, VI, and IX, the Louisiana Transitional Recovery Office,
                   and the Texas National Processing Service Center. We examined
                   documentation related to FEMA’s COTR program at each location
                   visited. We also sent a survey to 1,710 COTRs and contracting
                   officers. The response rate was 50% for COTRs and 85% for
                   contracting officers. We used the information gathered from our
                   survey throughout this report; the survey questions and summaries
                   of the answers are included as appendix F.

                   We conducted this performance audit between October 2010 and
                   March 2011 pursuant to the Inspector General Act of 1978, as
                   amended, and according to generally accepted government
                   auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to
                   provide a reasonable basis for our findings and conclusions based
                   upon our audit objectives. We believe that the evidence obtained
                   provides a reasonable basis for our findings and conclusions based
                   upon our audit objectives.




               FEMA’s Contracting Officer’s Technical Representative Program

                                         Page 20
Appendix B
Management Comments to the Draft Report




                                                                                IIS. ll t·p,,,·I IIU·III Of l l,,,,,..I,uu l SI.'t"uri ly
                                                                                '<;(1) (" Slr,·d. SW
                                                                                W",hinglon. DC JlI.tn




                                         AUG 0 4 2011


        MEMORANDUM FOR:               Mati Jadacki
                                      Assistant Inspecto r General
                                      Offi ce of Emergency Management Oversight

        FROM:                         David J. K<lll fillUn f l : : : : ;'
                                      Director             ;
                                      Offi ce of Pol icy an Program Analysis

        SUBJ ECT :                    f- EMA OC PO Respo nse to O [G Draft Report FEMA ·s Contracting
                                      OiJ"icer Technical Represelltatil'c Program, Project No .09-2 [4-EMO­
                                       FEM A


        We thank you for the opportunity to provide co mments to your draft report, FEMA 's COl1(raclillg
        qfficer Technical Representative Program. Your report explained the actions taken by your offi ce
        to review the Contracting Offi cer Technical Representative (COTR) Program and identified
        measures to enhance COT R training and mcntoring, reduce program office pressure, ensure
        programs fo ll ow records management guidance, develop a COTR di saster strategy, and train task
        monitors.

        Our respo nses to your eight reco mmendatio ns follow '

       Recommendation #1: Develop and implement a contractin g officel··s technical representative
       (COTR) meDtoring program led by the contracting officer's technical representatives'
       contracting officers and contract specialists; and, n·here practical, ensure that Program Offices
       Domin:,tc certified contracting officer's technical representatives with appropriate skill sets for
       consideration for appointment by the contracting officer to gain on-tlte-job experience.

        Respon se to Recommendation: FEMA l:oncur);; wit h this recommend ution . FEMA"s Office of the
        Chief Procurement Of/ker (OepO) will develop a pilot prob'l'am to eval uate the feasibi lity of
        implementing a COTR mcntori ng program by the end of this fiscal year, Sep tember, 30, 20l 1.

       Recommendation #2: Recognize contracting officer's technical representative duties and
       assure contracting officer input in the contl'acting officer's technic al representative's annual
       appraisal. Issue a mcmurnndum annually (rom the Federal Emergency Management Agency
       Administrator reminding supervisors that exerting undue pressure on contracting officer's
       technical representatives to perform duties outside the contract scope of ,,"'ark is an Ethics
       violation and may be subject to adverse action.


                                                                                W" ·'I. rema. /.:()\·




                     FEMA’s Contracting Officer’s Technical Representative Program

                                                     Page 21
Appendix B
Management Comments to the Draft Report




       Response to Besommendation: FEMA partially concW'S with this recommendation. FEMA's
       OCPO does not have supervisory authority over COTRs. In accordance with FEMA Directive
       228- I, supervisors may solicit the feedback of the Contracting Officer for the COTRs annua1
       appraisal. We will update our COTR nomination letter to notify Supervisors that the OCPO is
       available for feedback to the COTRs appraisal.

       In coordination with the FEMA Office of Chief Counsel, the OCPO will, at the start of each fiscal
       year, prepare a memorandum reminding supervisors that exerting undue pressure on COTRs to
       perfonn duties inconsistent with their appointment or the contract scope of work is an ethics
       violation and may be subject to adverse action.

       Recommepdatiog #3: Enforce the Federal Emer&ency Mana&ement A&enl:y Directive 228-1,
       ContractiDg Officer's Technical Representatives, and provide periodic training on the use of
       the contracting officer's technical representative file checklist.

       Response to R~mmeDd.tloD: FEMA concurs with this recommendation. FEMA's OCPO
       conducted a pilot program for COTR file technical review. Program Offices were selected at random
       to ensure COTR file compliance with FEMA Directive 228 l and the COTR appointment letter.
                                                                   a


       Non-compliance of the directive and appointment letter may result in tennination of the COTR
       appointment Periodic training and communication to COTRs regarding COTR file maintenance is
       continuous.

       Recommendatiob #4: Implement mecbanisms to enforce established policles for oversl&ht In
       the use of the Contractor Performance Assessment Reportiog System.

       Response to Recommendation: FEMA concurs with this recommendation. FEMA's OCPO will
       develop policy regarding the use ofCPARS by January 1,2012.

       Recommendation #5: Develop a working group with the program offices to develop a surge
       sfratee' for deployment of c.o ntractinc officer's technical representatives durin& disasters.

       Response to Recommendation: FEMA concurs with this recommendation. FEMA's OCPO will
       coordinate a working group with the program offices to assist in surge strategies for COTR.
       deployment.

       Recommendatiop #6: Develop and maintain, on a monthly basis, a database with essential
       information regardlng warranted contracting officers.

       Response to RecoDlDlendation: FEMA concurs with this recommendation. FEMA's OCPO
       Acquisition Career Manager maintains an accurate record of warranted contracting officers
       including their warrant levels, experience, training and education levels, branch loffice assignment,
       grade, series, and full performance level, and FAC-C certification level. FEMA's existing email
       distribution lists for all OCPO divisions and contracting personnel are adequate for the dissemination
       of contracting policy, guidance and contacting these individuals in the event of a disaster. The
       decision to notify the entire acquisition community of such changes has broadened the understanding
       of the OCPO function at large. In addition to the established email distribution lists in Outlook,
       FEMA maintains an emergency notification system that incorporates both the current email address
                                                         2




                  FEMA’s Contracting Officer’s Technical Representative Program

                                                   Page 22
Appendix B
Management Comments to the Draft Report




       and the home and work phone numbers for all OCPO personnel to contact them in the event of a
       disaster.

       Recommendation #7: Work in concert with the Federal Emergency Management Agency
       Chief Component Buman Capital OffICer and the Federal Emergency Management Agency
       Chief Counsel to review the classification of Acquisitioa Cadre posJtions in aD effort to
       improve the recruitment and opdmize the trai.ning aod utility of contractiDg speciaHsts in the
       Acquisition Cadre within the constraints ortbe Disaster AssJstance Employee proll'am.

       Response t9 RecommendatiQA: FEMA concurs with this recommendation. As of June 16, 2011,
       FEMA's Office ofHwnan Capital has concurred that change is needed to convert the DAE
       Reservists to the 1102 series and invited OCPO to work directly with the Office of Response and
       Recovery, Response Directorate, to form a pilot working group to accomplish the same for
       Acquisition reservists. Also, on that date, the FEMA Administrator transferred responsibility for the
       DAE Cadres to the Office of Response and Recovery, Response Directorate.

       Recommendation #8: Implement pollcy that requires all technical monitors to be Department
       of Homeland Security certified contracting officer's technical representatives, and appoints
       them as limlted authority contracting officer's technical representatives on a contract.

       FEMA concurs with this recommendation. The COTR Program has updated the COTR
       Handbook to address Limited Authority COTRs (fonnally known as Technical Moniton). Plans are
       being coordinated to update FEMA Directive 228·' with the role and responsibilities of the Limited
       Authority COTRs.

       Due to the scope or technical complexity of some business agreements, the Contracting Officer may
       also designate a Limited Authority COTR in addition to a COTR. Their role is to perfonn specific
       delegated duties or tasks within the limits specified by the Contracting Officer. The Limited
       'Authority COTR serves as the "eyes and ears" of the COTR relevant to their specified limits. These
       limits are stated in a letter of appointment signed by the Contracting Officer. Limited Authority
       COTRs are appointed to perfonn those functions only for that specific contract. Some duties may
       include, but are not limited to, acceptance of deliverables, monitoring of Contractor's perfonnance.
       providing support for the certification of invoices for payment and ensuring that Government
       property is being used. properly, At the end of the contract, the designation of duties automatically
       expires, unless terminated sooner by the Contracting Officer. The appointment process and training
       requirements for COTRs pertain equally to the Limited Authority COTR.

       Again, we thank you for the opportunity to review and provide comments on your draft report.
       Should you have any questions regarding this response, please feel free to contact Brad Shefka,
       Chief, FEMA GAO/OiG Liaison Office, 202·646·1308.




                                                         3




                   FEMA’s Contracting Officer’s Technical Representative Program

                                                    Page 23
Appendix C
COTR Training Requirements

Certification Requirements29
     To obtain initial DHS FEMA contracting officer’s technical representative
     certification, employees must complete 40 hours of initial COTR training and apply
     for COTR certification within 2 years of completing the required coursework. 22
     hours must cover essential COTR technical competencies, 18 hours must cover
     business competencies, and the remaining 2 hours must cover procurement ethics.

     DHS permits two exceptions to the requirements mentioned above:
           Applicants who have previously acquired a Contracting Level 1 Certification
           or higher are eligible for initial COTR certification.
           Project managers with Level II Certification or higher are eligible for initial
           COTR certification.

     Training can be obtained online or in the classroom. DHS offers free accredited
     classroom training for the initial training curriculum. Initial COTR training provided
     by vendors other than DHS-accredited vendors must be accompanied by a course
     description and 1 hour of ethics training. Program offices are responsible for the
     costs of training obtained through a training provider. Online training can be taken
     through the Federal Acquisition Institute.

     If the training is taken online via the Federal Acquisition Institute, COTR applicants
     may obtain their 40 credits using one of the following two options:
              Complete Contracting Officers Representatives Online Training (32 hours).
              To cover the remaining 8 hours, choose one of the following three Defense
              Acquisition University online courses:
              o Cost Estimating (8 hours)
              o Integrated Project Team (IPT) Management and Leadership (8 hours)
              o Risk Management (8 hours)

             Plus 1 hour of ethics:
             o Ethicsburg (ethics training via the Internet)
             o Ethics Training
             o	 Ethics Training for Acquisition Technology and Logistics (Defense
                Acquisition University)

     Or, the employee may complete all courses from list A and six continuous learning
     modules (CLMs) from list B from the table below. The remaining 10 continuous
     learning points (CLPs) must be from an approved CLM, which is available on FEMA’s
     COTR website.



29
  Information provided as found on FEMA’s COTR website. The website contains the training hour
inconsistencies demonstrated above. The inconsistency is due to ethics training being required in addition
to the 40 hours of technical training.

                      FEMA’s Contracting Officer’s Technical Representative Program

                                                  Page 24
Appendix C
COTR Training Requirements

         List A: Technical Courses                               List B: Business Courses
      Course                 Course Title         CLPs        Course            Course Title        CLPs
      Number                                                  Number
     CLM 024             Contracting Overview       8         CLM 012            Scheduling          12

     CLC30 106           Contracting Officer’s      8         CLM 014       IPT Management and       8
                         Representative with a                                  Leadership
                            Mission Focus

      CLC 004              Market Research          3         CLM 016          Cost Estimating       8

      CLC 007       Contract Source Selection       3         CLM 017         Risk Management        8
     CLM 003           Ethics Training for          2         CLB 013         Work Breakdown         6
                     Acquisition Technology                                      Structure
                         and Logistics
                              TOTAL                24         CLB 016       Intro to Earned Value    1
                                                                                 Management
                                                              CLB 018         Earned Value and
                                                                            Financial Management
                                                                                   Reports
Source: FEMA intranet.


           Once the training is complete, employees are instructed to fax or email scanned
           training certificates to COTR headquarters to be processed. After 48 hours, their
           updated status will be posted on the COTR list alphabetically.

           Biennial Training Requirements
           To maintain certification, COTRs are required to obtain 40 hours of continuous
           learning training every 2 years:
                  Twenty-two hours must cover essential COTR technical competencies. 

                  Eighteen hours must cover business competencies. 

                  Two hours must cover procurement ethics.
 





30
     CLC = continuous learning contracts.

                          FEMA’s Contracting Officer’s Technical Representative Program

                                                    Page 25
Appendix C
COTR Training Requirements


     Biennial Maintenance Training (Every 2 Years)
      Technical Competencies =       Business Competencies =        Ethics =         Total =
              22 hours                       18 hours               2 hours         40 hours
     Source: FEMA intranet.


     COTRs have two options to complete their biennial requirement:
          Complete all 40 hours and submit as one package, or
          Submit the minimum requirement for the first year, 12 hours plus 1 hour
          of ethics, and remaining hours by the end of the biennial period for a total
          of 40 hours.

     COTRs may receive also CLPs for Technical Evaluation Panel participation,
     conferences, and brown-bag training.

     COTRs who fail to complete their biennial requirement by the biennial
     maintenance due date will be required to complete 40 hours of COTR training in
     order to be reinstated. Failure to meet this requirement may result in the
     revocation of COTR certification.




                    FEMA’s Contracting Officer’s Technical Representative Program

                                              Page 26
Appendix D
Primary COTR Appointment Letter




                      Primary COTR Appointment Letter
 COMPONENT
 Insert Component Name
 Program Office                                              Employee
 Insert Program Office Name                                  Insert Employee Name
 Telephone                                                   Location
 Insert telephone number                                     Insert location

Dear Insert employee name,

You are hereby appointed as the Contracting Officer’s Technical Representative (COTR) for DHS Office of
Procurement Operations Agreement/ Contract number: Insert Agreement/Contract number for the amount of
Insert contract dollar amount, awarded to Insert name of contractor/awardee organization effective Insert effective
date.

Insert Agreement/Contract Number is a: (check one below)

ᆕ Contract                         ᆕ Purchase Order          ᆕTask Delivery Order

ᆕ Cooperative Agreement            ᆕGrant                    ᆕMemorandum of Understanding (MOU)

ᆕ Interagency/Intra-agency Agreement

Under this COTR appointment, you are assigned responsibilities to assist the Contracting
Officer in the administration of the Agreement/ Contract referenced above. This appointment remains in effect for
the duration of the business agreement, as long as your COTR certification remains current. This appointment can
only be changed or rescinded in writing by the Contracting Officer.

Please carefully review the explanation of COTR authority and responsibilities herein and sign the last page of
this document acknowledging your understanding and acceptance of this COTR appointment. After signing the
last page of the COTR appointment letter, please return it to the DHS OPO Division within ten (10) calendar
days.

SCOPE OF AUTHORITY

I, Insert COTR Name, understand and agree that:

1. 	 The DHS Office of Procurement Operations Contracting Officer is the only agent with authority to enter into
     and administer business agreements. I have been delegated the authority to monitor delivery and performance
     under the business agreement as the Contracting Officer’s Technical Representative. Other than the
     Contracting Officer, or the alternate COTR acting in my absence, I am the duly appointed Government
     employee assigned to provide technical direction for the business agreement between the Government and the
     Contractor.


                             FEMA’s Contracting Officer’s Technical Representative Program

                                                       Page 27
Appendix D
Primary COTR Appointment Letter


2. 	 This appointment does not change or supersede the established line of authority and/or responsibility of any
     organization.

3. 	 I shall notify the Contracting Officer immediately if I am unable to fulfill the responsibilities of this position
     for an extended period.

4. 	 I shall protect the Government’s interests while performing my COTR duties. I must avoid any action that
     places me in a real or apparent conflict of interest that may compromise security or impair public confidence
     in the integrity of DHS.

5. 	 I have read DHS Management Directive 0480.1, Ethics /Standards of Conduct, and discussed any questions I
     have regarding my understanding of the duties and obligations under this policy.


COTR RESPONSIBILITIES

1.		 PREPARATION

    a.		 The COTR must be knowledgeable of the terms and conditions, as well as the technical content in the
         business agreement. To understand the terms, the COTR must read the business agreement and discuss
         any unclear areas with the Contracting Officer. The following is a list of topics in the Agreement that the
         COTR is expected to understand and manage:

        Business Agreement Type                Performance Standards 81 Metrics
 

        Invoicing Procedures                   Security Requirements
         

        Packaging and Markings                 Inspection, Acceptance, and Special Clauses
 

        Quality Assurance                      Ordering Procedures
         

        Reports & Deliverable Items Time, Place and Method of Delivery or Performance 

        Government Furnished Assets and Information 


    b. While the official contract/agreement file is maintained by the Contracting Officer, the COTR must create
       and maintain a file to document COTR actions under this business agreement. The file should include:
                       A complete copy of the business agreement, a copy of the COTR Letter of Appointment;
                       Copies of any related correspondence;
                       Record of any significant telephone conversations or other communications with the
                       Contractor;
                       Signed invoices;
                       All records of the Contractor’s performance, such a performance monitoring, inspection
                       and service reports and other documents as applicable.

    c.		 In order to effectively monitor delivery and performance, the COTR must read and become very familiar
         with the business agreement’s schedule for performance standards and metrics, deliveries, completion
         dates, invoice due dates, option renewal dates and other report or data submission dates. The COTR must
         also establish a log or tracking system.

2.		 GENERAL ADMINISTRATION INFORMATION

    a.		 Determine the need, and ensure all requirements are met for Contractor badges, background checks, and
         all other required clearances.

                             FEMA’s Contracting Officer’s Technical Representative Program

                                                       Page 28
Appendix D
Primary COTR Appointment Letter


  b. Plan and coordinate as necessary with the Insert local facilities managers, real estate personnel or
     appropriate points of contact for the component.

  c. Obtain and maintain a list of employees who will be working at the Insert appropriate information
     facility. Keep list current by making adjustments for new and terminated employees. This is important to
     the security of the facility. This list may be used to initiate background checks by the security office in the
     relevant location.

  d. Coordinate with the Contracting Officer to ensure all Contractors (and subcontractor as applicable) have
     signed nondisclosure forms, as prudent or required.

  e. Safeguard the Contractor’s confidential business and technical information. Confidential information may
     include proposal pricing, technical documentation, or personnel data. Do not release any information
     without first consulting with the Contracting Officer to determine if release of such information is
     permissible.

  f.   Maintain communications with the Contractor and the Contracting Officer. Meet with the Contractor or
       his/her designated representative at the beginning of the business agreement period of performance to
       discuss working methods. Also, serve as the contact through which the Contractor can relay questions and
       problems to the Contracting Officer.

  g. Ensure all Contractor personnel identify themselves and their company affiliation in all communications
     (written, telephonic, and electronic) related to the business agreement.

  h. Monitor the Contractor’s compliance with safety, security, labor and environmental law requirements.

  i.   Report any observed fraud, waste, or opportunities to improve performance or cost efficiency to the
       Contracting Officer.

  j.   Provide independent government cost estimates (IGCEs) and other supporting information as required by
       the Contracting Officer when changes to the business agreement are required.

  k. Assist the Contracting Officer in negotiating supplemental agreements and coordinating with related
     Contractors on other business arrangements.

  l.   Write an evaluation of the Contractor’s technical performance at least annually and at the end of
       performance or delivery. If a specific form is required, it will be provided by the Contracting Officer.

  m. Keep the Contracting Officer fully informed of any technical, administrative or contractual difficulties
     encountered during performance and make recommendations as appropriate.

  n. Seek guidance from the Contracting Officer for specific situations not covered in this delegation.

3.		 MONITORING AND SURVEILLANCE

  a.		 Perform surveillance of the performance under the business agreement and conduct inspections necessary
       to assure performance and compliance with the terms and conditions of the agreement. Resolve day-to­
       day matters within the scope of your authority.


                           FEMA’s Contracting Officer’s Technical Representative Program

                                                     Page 29
Appendix D
Primary COTR Appointment Letter

  b.		 Assist the Contractor in interpreting the terms and conditions or performance requirements, provided that
       any interpretation or clarification is within the limitations prescribed within this delegation.

  c.		 Immediately bring to the Contractor’s attention, any potentially hazardous working conditions. The
       Contractor is always required to comply with Federal Occupational Safety and Health Administration
       (OSHA) guidelines, applicable labor and environmental laws, as well as any state or local requirements
       for workplace safety, whether in a Federal facility or other location. In addition, ensure that the
       Contractor adheres to any specific safety clauses and/or the safety plan in the business agreement.

  d.		 Immediately alert the Contracting Officer to any possible Contractor deficiencies or questionable
       practices so that corrections can be made before the problems become significant. Advise the Contracting
       Officer of the following situations:

              Possible changes in Contractor management and/or key personnel;
 

              Potential labor disputes or workforce problems; 

              Disagreements with the Contractor regarding performance of statement of work/objectives 

              (SOW/SOO) requirements or other potential disputes with the Contractor about technical or other 

              business matters; 

              Lack of performance that may jeopardize the cost or required schedule of the business agreement.
 


  e.		 Review Contractor requests for travel, overtime, Government assets, or subcontracting in a timely manner
       and forward to the Contracting Officer for approval.

  f.   Review and analyze the Contractor’s deliverables, service, and management reports.

  g.		 Provide feedback on Contractor performance as input to the past performance data base or as otherwise
       requested by the Contracting Officer.

4.		 INSPECTION AND ACCEPTANCE

  a.		 Inspect deliverables and monitor services for conformance to the performance standards, and accept or
       reject them.

  b.		 Follow the guidance within the business agreement regarding inspection and acceptance. 

       If there are any questions, contact the Contracting Officer. 





                          FEMA’s Contracting Officer’s Technical Representative Program

                                                    Page 30
Appendix D
Primary COTR Appointment Letter

5.		 INVOICES AND PAYMENT

  a.		 See clause Insert appropriate clause for processing of invoices and adhere to those conditions.

  b.		 Report any discrepancies in payment vouchers to the Contracting Officer. Provide documentation to
       support the representation.

  c.		 Evaluate progress payment requests based on costs incurred and actual work accomplished.

  d.		 Review Interim Cost Vouchers: If this is a cost reimbursable agreement, the Contractor is entitled to be
       reimbursed periodically for all reasonable costs incurred in performing the business agreement. You
       should review such vouchers to make sure charges are commensurate with observed performance. It is
       your responsibility to question or concur with direct charges such as labor, materials, travel, etc. Alert the
       Contracting Officer if the billing includes material or equipment charges for items that have not been
       delivered to the work site. The Contracting Officer is responsible for verifying correctness of indirect
       rates, fringe benefits and fee, if any.

6.		 GOVERNMENT FURNISHED ASSETS: EQUIPMENT, MATERIALS AND FACILITIES

  a.		 Do not authorized to provide any Government-owned (or leased) equipment or supplies or use of
       Government space to the Contractor, other than those specifically identified in the business agreement
       and authorized by the Contracting Officer.

  b.		 Monitor the Contractor’s use and care of any Government-furnished assets. If you believe the Contractor
       is using the item for unauthorized purposes or is not providing adequate maintenance or security for the
       property, you are required to bring your concerns to the Contractor’s attention. If the Contractor does not
       agree to remedy the problem, or indicates that corrective action will impact the cost, performance or
       schedule, refer the matter to the Contracting Officer.

  c.		 Coordinate with the Insert POC Name regarding the completion of all required documentation for the
       acceptance, use and return of Government-furnished assets.

  d.		 Assist the Insert POC Name with the disposal of excess Government furnished assets and/or Contractor
       acquired assets.

  e.		 Assist the Insert POC Name with the valuation of lost, damaged and destroyed Government furnished
       assets and/or Contractor acquired assets.

  f.	 Alert the Insert POC Name and the Contracting Officer to any potential or existing Government asset
      issues.




                           FEMA’s Contracting Officer’s Technical Representative Program

                                                     Page 31
Appendix D
Primary COTR Appointment Letter

7.		 CONFLICT OF INTEREST AND STANDARDS OF CONDUCT

  a.		 The COTR is required to complete an Office of General Counsel (OGC) ethics training course annually.
       Upon completion of the annual ethics training, the COTR shall submit documentation (e.g., certificate or
       e-mail) to the Contracting Officer indicating the annual ethics training requirement has been met.

  b.		 In order to maintain DHS COTR Certification, one (1) hour of procurement ethics training is required
       annually per MD 0780.1.

  c.		 If applicable, the COTR appointee must submit a disclosure, such as a Statement of Financial Interest and
       Outside Employment or Financial Disclosure Report, to the appropriate DHS confidential reporting
       system.

  d.		 COTR appointees must adhere to standards of conduct as prescribed in Federal statutes, laws, regulations,
       and Departmental guidelines.




                          FEMA’s Contracting Officer’s Technical Representative Program

                                                    Page 32
Appendix D
Primary COTR Appointment Letter

8. EXCLUSIONS FROM COTR RESPONSIBILITIES 


The COTR is expressly excluded from performing or being responsible for the following. 


    a. Making or giving the appearance of being able to make commitments, modifications, or any other action
       that would commit the Government to a change in price, performance quality, quantity, or the delivery
       schedule.

    b. Providing guidance to the Contractor, either orally or in writing, which might be interpreted as a change
       in the scope or terms of the business agreement.

    c. Signing any changes or modifications to business agreements and/or task or delivery orders.

    d. Specifying how the Contractor will accomplish performance.

    e. Imposing or placing a demand upon the Contractor to perform any task or permitting any substitution not
       specifically provided for in the business agreement.

    f.   Increasing the dollar limit of the business agreement or authorizing expenditures not specified under the
         business agreement.

    g. Engaging in conduct prejudicial to the Government.

    h. Making a Government decision outside official channels.

    i.   Discussing procurement plans or any other advance acquisition information that might provide
         preferential treatment to one firm.

The responsibilities, and exclusions set forth in this document are not Intended to be a encompassing. As a COTR,
you are required to consult with the Contracting Officer when there are questions on your authority. You are not
authorized to re-delegate your authority. Violation or misuse of your authority could result in abuse of DHS
policy and resources at a minimum or monetary loss to the COTR or firm involved, disciplinary actions, and
other measures, depending on the extent of the offense.

Contracting Officer Typed Name and Signature Date


The undersigned acknowledges the COTR appointment on Agreement/Contract Number: Insert
Agreement/Contract Number and accepts the duties, responsibilities and limitations described in the appointment
letter.

The Contracting Officer reserves the authority to cancel COTR appointments in accordance with HS AM, Chapter
3001.

COTR Acknowledgment:

I, Insert COTR Name, have read the COTR appointment letter herein for Agreement/Contract Number Insert
Agreement/Contract Number and fully understand my responsibilities and the limits of my authority. I further
understand that my performance as a COTR will be evaluated and documented on an annual basis by the
Contracting Officer. I certify that I have taken the required training to obtain the DHS Acquisition Certification

                            FEMA’s Contracting Officer’s Technical Representative Program

                                                      Page 33
Appendix D
Primary COTR Appointment Letter

for COTRs or have received a waiver. In addition, I certify that I will take the mandatory skills currency training
to maintain my certification during the duration of this appointment.



_________________________                                                          __       _
Signature                                                                               Date


Supervisor Acknowledgment:

I, Insert COTR Supervisor’s Name, have read the COTR appointment letter herein and fully understand, support
and approve my employee’s responsibilities and limitations as a COTR under the above referenced contract.

_    ________________________                                                       __     _
Signature & Title                                                                     Date

Return no later than fill in date to: Include Fax Number, e-mail or mailing address



U.S. Department of Homeland Security – Federal Emergency Management Agency – Acquisition Management Division
COTR Program – 395 E Street SW – Washington, DC 20024




                                 FEMA’s Contracting Officer’s Technical Representative Program

                                                               Page 34
Appendix E
COTR Locations

FEMA Regions




Source: FEMA.


                                          COTRs in Each Region

                                        Region                    COTRs
                                        Headquarters                360
                                        Region I                     16
                                        Region II                    19
                                        Region III                   30
                                        Region IV                    47
                                        Region V                     16
                                        Region VI                   103
                                        Region VII                   20
                                        Region VIII                  28
                                        Region IX                    16
                                        Region X                      6
                                        Other                       242

Source: OIG survey results.




                          FEMA’s Contracting Officer’s Technical Representative Program

                                                    Page 35
Appendix F
Survey Results

As a part of our audit, we forwarded a survey to all COTRs and contracting officers. We
obtained a list of the names and email addresses of all COTRs and contracting officers
from FEMA. Each individual was sent an email with information about the survey, and
an individualized link for them to use for access to the survey. The initial invitation was
sent out November 17, 2010, and the survey was closed in March 2011. Periodically
after the initial invitation, reminders were sent to those who did not complete the survey.
The results of the survey follow:

Overall Results: Of the 1,710 people to whom the survey was initially forwarded:
                 554 people received the survey and did not respond.
                 7 people had undeliverable invitations.
                 118 invitations bounced back.
                 77 people opened the survey invitation but did not start the survey.
                 82 people started the survey but did not submit it.31
                 872 people completed the survey.

Survey Questions:

Question 1: Please select your primary work location

        Results:
           The four regions with the greatest number of COTRs and contracting officer s
           are as follows:
               360 individuals at headquarters
               242 individuals at other locations (i.e., Mt. Weather, Louisiana
               Transitional Recovery Office, National Processing Service Centers)
               103 individuals in Region VI
               47 individuals in Region IV
           Region X, with six individuals, has the smallest number of COTRs and
           contracting officers.

Question 2: Which of the following best describes your role within FEMA’s COTR
           Program?

        Results:
               469 answered active DHS-certified COTRs.
               296 answered DHS-certified COTRs but have not been active in the last 2
               years.
               60 answered active contracting officers.
               26 answered not active contracting officers.
               8 answered both DHS-certified COTRs and contracting officers.
               39 answered neither DHS-certified COTRs nor contracting officers.

31
  For the purposes of this analysis, we included answers provided by respondents who started the survey
but did not submit it.

                     FEMA’s Contracting Officer’s Technical Representative Program

                                                 Page 36
Appendix F
Survey Results


Question 3: How many years of experience do you have as a contracting officer?

       Results: 

              25 had 10 years of contracting officer experience. 

              10 had 6 to 9 years of contracting officer experience.
              8 had 3 to 6 years of contracting officer experience.
              12 had fewer than 3 years of contracting officer experience.

Question 4: What level warrant do you hold?

       Results:
              53% hold a level III warrant.
              15% hold a level II warrant.
              7% hold a level I warrant.
              12% were unaware of their warrant levels.

Question 5: As a contracting officer, how many contracts are you currently
           responsible for?

       Results:
              56% of respondents oversaw anywhere from 1 to 25 contracts.
              30% of respondents oversaw 25 or more contracts.
              13% of respondents oversaw no contracts.

Question 6: Are you aware of the process for appointing COTRs to contracts?

       Results:
              5% indicated that contracting officers select their own COTRs.
              69% indicated that their program office nominates the COTRs.
              12% indicated that it is just their program office that does the selecting
              and approving.
              5% were completely unaware of the COTR selection process.

Question 7: As a contracting officer, how frequently do you use each of the following
           forms of communication?

       Results:
              The majority of contracting officers indicated that they use email and the
              phone.
              The form of communication least used was postal service.




                  FEMA’s Contracting Officer’s Technical Representative Program

                                            Page 37
Appendix F
Survey Results

Question 8: When a COTR has committed an infraction against their roles and
           responsibilities, what corrective action(s) is taken to address the
           infraction?

      Results:
             62% said they would utilize options outlined in the
             Revocation/Termination of COTR Certification Standard Operating
             Procedure.
             52% said they would reach out to the program office to nominate a
             replacement COTR.
             48% said they would seek assistance from the COTR program.
             23% said they would immediately terminate the appointment.
             2% said they would do nothing.
             18% said they would do something other than the options provided.

Question 9: How many of your contracts currently have COTRs appointed?

      Results:
             40% of the contracting officers said that all of their contracts currently
             have COTRs appointed to them.
             28% said that most of their contracts have COTRs.
             12% said that half of their contracts have COTRs.
             12% said that only some of their contracts have COTRs.
             7% said that none of their contracts have COTRs.

Question 10: On any single contract, do you have more than one COTR appointed
             at the same time?

      Results:
             63% have only one COTR per contract.

Question 11: How many years of experience do you have as a Contracting Officer’s
          Technical Representative?

      Results:
             180 COTRs had fewer than 3 years of experience as a COTR.
 

             150 had 3 to 6 years of experience. 

             45 had 6 to 9 years of experience. 

             75 had more than 9 years of experience.
 





                 FEMA’s Contracting Officer’s Technical Representative Program

                                           Page 38
Appendix F
Survey Results

Question 12: What level of certification have you achieved and are currently certified?

       Results:
              Tier I: 211 people
              Tier II: 51 people
              Tier III: 73 people
              125 COTRs did not know what certification level they were.

Question 13: When questions arise while performing my COTR duties, I use the
             following sources as guidance:

       Results: 

              86% go to the contracting officer. 

              43% use hard copies of guidance at their desks. 

              41% go to their supervisors in their program office.
 

              8% go to the contractor (the least used resource). 


Question 14: As a COTR, how many contracts are you currently responsible for?

       Results: 

              75% are currently responsible for 1 to 5 contracts.


              1.73% are responsible for 25 or more contracts. 

              15.55% are not responsible for any contracts. 


Question 15: How many of your contracts currently have task monitors assigned?

       Results:
              70% of respondents did not have any contracts with task monitors
              assigned.
              14% stated that all of their contracts have task monitors assigned.
              16% fell somewhere in between the two and had anywhere from some to
              most of their contracts assigned task monitors.

Question 16: On any single contract, do you have more than one task monitor
             assigned?

       Results:
              85% of COTR respondents indicated that they do not have more than one
              task monitor assigned to their contracts.
              15% said they do have more than one task monitor on a single contract.




                  FEMA’s Contracting Officer’s Technical Representative Program

                                            Page 39
Appendix F
Survey Results

Question 17: When contacting your contracting officer, how frequently do you use
             the following forms of communication?

       Results:
              About 240 COTRs indicated that they use email most often to
              communicate with their contracting officer.
              About 75 COTRs use the telephone.
              The least used form of communication was the postal service.

Question 18: How would you rate your contracting officer’s responsiveness to emails?

       Results:
              About 225 COTRs found their contracting officers to be extremely
              responsive to their emails.
              Almost 200 found the contracting officers to be responsive to emails.
              Fewer than 50 said their contracting officers are nonresponsive to emails.

Question 19: How often do you meet (telephone or in person) with your contracting
             officer to discuss the progress of your contract?

       Results:
              Only about 9%, or 43 COTRs, stated that they meet with their contracting
              officer via telephone or in person very often to discuss the progress of
              their contract.
              Almost 50% stated that they meet sometimes via telephone or in person
              with their contracting officer to discuss progress.
              About 19% stated that they never meet with their contracting officer to
              discuss the progress of their contract.

Question 20: Have you received a copy of your COTR appointment letter from the
             contracting office?

       Results:
              85% of respondents indicated that they did receive a copy of their COTR
              appointment letter from their contracting officer.
              15% indicated that they had not received an appointment letter.

Question 21: Were you involved in the pre-award phase of the contract?

       Results:
              59.8% of COTRs were involved in the pre-award phase of the contract.
              40% were not involved.




                  FEMA’s Contracting Officer’s Technical Representative Program

                                            Page 40
Appendix F
Survey Results

Question 22: How effective do you find each of the following areas of FEMA’s
             COTR Program?

       Results:
          FEMA COTR Program Training
              About 250 people found it to be effective.
              100 people found it to be not very effective.
              100 people found it to be very effective.
              About 20 people found it to be not effective at all.

          FEMA COTR Program Policy and Procedure 

            More than 250 people found it to be effective. 

            About 100 found it to be not very effective. 

            Close to 90 found it to be very effective. 

            Fewer than 20 found it to be not effective at all. 


          Overall FEMA COTR Program 

             Close to 300 people found it to be effective.


             About 100 said it was not very effective.
 

             Fewer than 100 said it was very effective. 

             About 10 said it was not effective at all. 


Question 23: In the last 2 years, have you experienced any of these challenges with
              FEMA’s COTR Program?

       Results:
              38% of all respondents (COTRs and contracting officers) experienced
              challenges with unclear policy and procedure.
              36% experienced challenges with a lack of communication.
              30% identified other challenges that were not presented as options.
              27% said conflict between COTR responsibilities and program office
              duties was a challenge.
              16% said they experienced excessive pressure from the program office.
              10% experienced conflict between new contractors and existing
              contractors who are proven performers (the least common challenge).

Question 24: What improvements would you like to make to FEMA’s COTR
             Program?

       Results:
          Top three categories of responses:
              Training (i.e., more training, less training, more FEMA-related training)
              Communication
              Policy, procedure, and guidance

                  FEMA’s Contracting Officer’s Technical Representative Program

                                            Page 41
Appendix F
Survey Results


Question 25: Please feel free to leave any additional comments or concerns:

       Results:
          A few of the topics shared included comments about or concerns with the
          following:
              Training 

              Making COTRs a full-time position
 

              The COTR website 

              Policy and Procedure 

              Consistency within the program 





                 FEMA’s Contracting Officer’s Technical Representative Program

                                           Page 42
Appendix G
List of Related Reports

Department of Homeland Security Office of Inspector General

      Improvement Needed in FEMA’s Management of Public Assistance-Technical
         Assistance Contracts, OIG-11-02, October 2010

      Improvement Needed in FEMA’s Management of the National Flood Insurance
         Program’s Information Technology Transition, OIG-10-76, March 2010

      Improvements Needed in FEMA’s Disaster Contract Management, OIG-10-53,
         February 2010

      FEMA’s Temporary Housing Unit Program and Storage Site Management,
        OIG-09-85, June 2009

      Federal Protective Service Contract Guard Procurement and Oversight Process,
         OIG-09-51, April 2009

      Challenges Facing FEMA’s Disaster Contract Management, OIG-09-70,
         May 2009

      Internal Controls in the FEMA Disaster Acquisition Process, OIG-09-32,
          February 2009

      Hurricane Katrina Temporary Housing Technical Assistance Contracts,
         OIG-08-88, August 2008

      Acquisition Workforce Training and Qualifications, OIG-08-56, May 2008

      FEMA’s Preparedness for the Next Catastrophic Disaster, OIG-08-34,
        March 2008

      Challenges Facing FEMA’s Acquisition Workforce, OIG-09-11, November 2008

      Improper Payments Assessment Disaster Relief Fund Vendor Payments,
         Fiscal Year 2009, October 2007

      An Audit of FEMA’s Acquisition Workforce, OIG-04-12, March 2004

Government Accountability Office

      National Flood Insurance Program: Continued Actions Needed to Address
         Financial and Operational Issues, GAO-10-631T, April 2010

      National Flood Insurance Program: Financial Challenges Underscore Need for
         Improved Oversight of Mitigation Programs and Key Contracts, GAO-08­
         437, June 2008
                 FEMA’s Contracting Officer’s Technical Representative Program

                                           Page 43
Appendix G
List of Related Reports


      Ineffective FEMA Oversight of Housing Maintenance Contracts in Mississippi
          Resulted in Millions of Dollars of Waste and Potential Fraud, GAO-08-106,
          November 2007

Miscellaneous Documents

      Federal Acquisition Institute: 2008 Acquisition Workforce Competencies Survey
         Results Report and Survey Content, 2008

      Federal Emergency Management Agency: FEMA’s Strategic Plan: Fiscal Years
         2008–2013, January 2008

      Federal Emergency Management Agency: FEMA Contracting Enhancements and
         Improvements Post Katrina, FEMA Press Release, 2007

      Merit Systems Protection Board: Contracting Officer’s Representatives:
         Managing Government’s Technical Experts to Achieve Positive Contract
         Outcomes, U.S. Merit Systems Protection Board, December 2005




                 FEMA’s Contracting Officer’s Technical Representative Program

                                           Page 44
Appendix H
Major Contributors to this Report

                    Donald Bumgardner, Director
                    Trudi Powell, Audit Manager
                    Eric Young, Audit Manager
                    Alexandra Vega, Program Analyst
                    Meredith Needham, Program Analyst
                    Puja Patel, Program Analyst




                FEMA’s Contracting Officer’s Technical Representative Program

                                          Page 45
Appendix I
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      FEMA GAO/OIG Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                FEMA’s Contracting Officer’s Technical Representative Program

                                          Page 46
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
